                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Congressionally Requested
                     Inquiry Into the EPA’s Use of
                     Private and Alias Email Accounts

                     Report No. 13-P-0433               September 26, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:	                              Rudolph M. Brevard
                                                   Michael Goode
                                                   Eric K. Jackson Jr.
                                                   Teresa Richardson
                                                   Gina Ross
                                                   Sabrena Stewart




Abbreviations

CFR           Code of Federal Regulations
EPA           U.S. Environmental Protection Agency
GAO           U.S. Government Accountability Office
NARA          National Archives and Records Administration
NRPM          National Records Management Program
OIG           Office of Inspector General
OMB           Office of Management and Budget




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency                                                   13-P-0433
                       Office of Inspector General                                                    September 26, 2013




                       At a Glance
Why We Did This Review              Congressionally Requested Inquiry Into the EPA’s
We conducted this audit in          Use of Private and Alias Email Accounts
response to a request by the
U.S. House of Representatives        What We Found
Committee on Science, Space,
                                    We found no evidence that the EPA used, promoted or encouraged the use of private
and Technology for information
                                    “non-governmental” email accounts to circumvent records management
about the U.S. Environmental
                                    responsibilities or reprimanded, counseled or took administrative actions against
Protection Agency’s (EPA’s)
                                    personnel for using private email or alias accounts for conducting official government
practices when using private and
                                    business. EPA senior officials said they were aware of the agency records
alias email accounts to conduct
                                    management policies and, based only on discussions with these senior officials, the
official business.
                                    OIG found no evidence that these individuals had used private email to circumvent
                                    federal recordkeeping responsibilities.
The EPA’s records management
program is managed through the
                                    The previous EPA Administrator and the then Acting EPA Administrator who followed
agency’s National Records
Management Program. The             were issued two EPA email accounts. One account was made available to the public
agency’s records officer, located   to communicate with the EPA Administrator and the other was used to communicate
within the Office of                internally with EPA personnel. This was the common practice for previous
Environmental Information,          Administrators. The practice is widely used within the agency and is not limited to
is responsible for leading the      senior EPA officials. These secondary EPA email accounts present risks to records
program in accordance with EPA      management efforts if they are not searched to preserve federal records.
policy, procedures, and federal
statutes and regulations.           The agency recognizes it is not practical to completely eliminate the use of private
                                    email accounts. However, the agency had not provided guidance on preserving
This report addresses the           records from private email accounts. The EPA has not implemented oversight
following EPA theme:                processes to ensure locations provide consistent and regular training on records
                                    management responsibilities, and employees complete available training on their
                                    delegated National Records Management Program duties. Inconsistencies in
  Embracing EPA as a high
                                    employee out-processing procedures pose risks that federal records are not identified
   performing organization.
                                    and preserved before an employee departs the agency. EPA also lacks an automated
                                    tool to create federal records from its new email system.

                                     Recommendations and Planned Agency Corrective Actions

                                    We recommend that the assistant administrator for the Office of Environmental
                                    Information develop and implement oversight processes to update agency guidance
                                    on the use of private email accounts, train employees and contractors on records
                                    management responsibilities, strengthen relationships between federal records
                                    preservation and employee out processing, and deliver a system to create federal
                                    records from the new system. The EPA concurred with many of our
                                    recommendations but did ask that we clarify aspects of two findings. The agency has
                                    either completed recommended actions or plans to take corrective actions to address
                                    our findings.
For further information,
contact our public affairs
office at (202) 566-2391.
                                     Noteworthy Achievements

                                    EPA created a records policy to provide guidance to personnel regarding roles and
The full report is at:              responsibilities for records management. In fiscal year 2009, the EPA declared
www.epa.gov/oig/reports/2013/       electronic content management an agency-level weakness. In its fiscal year 2012
20130926-13-P-0433.pdf              Agency Financial Report, the EPA cited as part of its corrective action plan that it
                                    launched two pilot projects to evaluate tools for eDiscovery and the management of
                                    email records. Over the past 4 years, the EPA has taken various actions to close out
                                    this agency-level weakness.
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460



                                                                                        THE INSPECTOR GENERAL



                                          September 26, 2013

MEMORANDUM

SUBJECT:       Congressionally Requested Inquiry Into the EPA’s Use of
               Private and Alias Email Accounts
               Report No. 13-P-0433

FROM:          Arthur A. Elkins Jr.

TO:            Renee Wynn, Acting Assistant Administrator and Chief Information Officer
               Office of Environmental Information

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG identified and the corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position.

Action Required

The EPA agreed with all five of our recommendations. The agency completed agreed-upon corrective 

actions associated with recommendations 1 and 2 and the OIG considers these recommendations closed. 

Recommendations 3 through 5 are considered open with agreed-upon corrective actions pending. 

We accept EPA’s response and planned corrective actions and no further response is needed.
	

If you or your staff have any questions regarding this report, please contact Richard Eyermann, the acting 

assistant inspector general for the Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov; or 

Rudolph Brevard, director for Information Resources Management Audits, at (202) 566-0893 or 

brevard.rudy@epa.gov. 

Congressionally Requested Inquiry Into the EPA’s                                                                            13-P-0433
Use of Private and Alias Email Accounts


                                   Table of Contents 


Chapters
   1     Introduction .......................................................................................................      1


                 Purpose ......................................................................................................    1     

                 Background ................................................................................................       1     

                 Noteworthy Achievements ...........................................................................               2     

                 Scope and Methodology .............................................................................               3     


   2     The EPA’s Use of Private and Alias Email Accounts .....................................                                   5


                 Results of Review .......................................................................................         5


                          The EPA Lacks Records Management Policies and Procedures 

                             Regarding Private Email Account Usage.....................................                            6

                          The EPA Lacks Records Management Training for 

                             Private and Alias Email Usage.....................................................                    7

                          The EPA Lacks Practices for Collecting and Preserving Records 

                             Records for Employees Separating From Regional Offices.........                                       8

                          The EPA Lacks Tool to Place Email in Its Electronic Content 

                            Management System for Its New Email System .........................                                  10 


                 Agency Actions Prior to Issuance of Final Report .......................................                         10 


                 Recommendations ......................................................................................           11 


                 Agency Response and OIG Evaluation .......................................................                       12 


   Status of Recommendations and Potential Monetary Benefits..............................                                        13




Appendices
   A     Agency Response to Draft Report....................................................................                      14


   B     Distribution .........................................................................................................   22

                                  Chapter 1

                                   Introduction

Purpose
            We conducted this audit in response to a U.S. House of Representatives
            Committee on Science, Space, and Technology request for information about
            whether the U.S. Environmental Protection Agency (EPA) follows applicable
            laws and regulations when using private and alias email accounts to conduct
            official business. Specifically, in response to the committee’s request, the Office
            of the Inspector General (OIG) sought to determine whether the EPA:

                 Promoted or encouraged the use of private or alias email accounts to
                  conduct official government business.
                Reprimanded, counseled, or took administrative actions against any
                  employees using private or alias email accounts.
               	 Established and implemented email records management policies and
                  procedures for collecting, maintaining and accessing records created from
                  any private or alias email accounts.
               	 Provided adequate training to employees concerning the use of private or
                  alias email accounts to conduct official government business.
               	 Established and implemented oversight processes to ensure employees
                  comply with federal records management requirements pertaining to
                  electronic records from private or alias email accounts.

Background
            National Archives and Records Administration

            The National Archives and Records Administration (NARA) is responsible for
            overseeing agencies’ adequacy of documentation and records disposition
            programs and practices. NARA issues regulations and provides guidance and
            assistance to federal agencies on ensuring adequate and proper documentation of
            the organization, functions, policies, decision, procedures and essential
            transactions of the federal government; and ensuring proper records disposition,
            including standards for improving the management of records.

            Private and Alias Email

            Private email accounts for the purposes of this review are defined as any
            non- “.gov” email addresses used to conduct EPA business. Alias email is defined
            as a secondary “epa.gov” account used to conduct EPA business. EPA stated that




13-P-0433                                                                                         1
            alias email accounts have been used by prior EPA Administrators given the large
            volume of emails sent to their public EPA accounts.

            Agency Record Management

            The EPA manages its official records through its National Records Management
            Program (NRMP). The Office of Information Collection within the EPA’s Office
            of Environmental Information oversees the NRMP. The agency records officer is
            responsible for leading the NRMP in accordance with the EPA policy,
            procedures, and federal statutes and regulations. The agency records management
            program lists the following as the agency records officer’s responsibilities:

                  Developing an overall records management strategy.
                  Producing and updating EPA records management policies, procedures,
                   standards and guidance.
                  Cooperating with other units in developing policies and guidance on the
                   application of technology to records management.
                  Conducting specialized briefings on records management.
                  Assisting records programs across the agency with advice and technical
                   expertise.

Noteworthy Achievements
            The EPA took steps to improve its records management practices. For example,
            the EPA created a records policy to provide guidance to personnel on the roles
            and responsibilities pertaining to records management. In addition, in fiscal year
            2009, the EPA declared electronic content management an agency-level
            weakness. In its fiscal year 2012 Agency Financial Report, the EPA stated that it
            has either completed or initiated the following corrective actions to address this
            agency-level weakness:

                 Established a new Quality Information Council Electronic Content
                  Subcommittee.
                Developed a charter for the subcommittee.
                Established two enterprise-wide workgroups under the subcommittee.
                Developed interim procedures to address the storage and preservation of
                  electronically stored information.
               	 Launched two pilot projects to evaluate tools for eDiscovery and the
                  management of email records. The results of the pilot projects will be used to
                  inform the subcommittee’s decisions on future policy or tool implementation.

            The agency has also stated that it will develop a validation strategy to assess the
            effectiveness of various activities undertaken to redress the identified weakness.
            The validation strategy will consist of processes that allow the agency to review
            and determine whether policies and tools are being implemented and utilized.



13-P-0433                                                                                         2
Scope and Methodology
            We conducted this audit from December 2012 to June 2013. We performed this
            audit in accordance with generally accepted government auditing standards.
            Those standards require that we plan and perform the audit to obtain sufficient
            and appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on the audit objectives.

            To obtain a broad understanding of EPA officials records management
            responsibilities, we reviewed agency records management policies and procedures;
            the Code of Federal Regulations (CFR) in 36 CFR Chapter XII – National Archives
            and Records Administration; Office and Management Budget (OMB) Circular
            A-123, Management’s Responsibilities for Internal Control; and OMB Circular
            A-130, Management of Federal Information Resources.

            We met with the then Acting EPA Administrator (currently the Deputy
            Administrator), staff and officials from the Office of the Administrator, officials
            from the Office of General Counsel, and appointed or acting assistant and
            regional administrators from the following program and regional offices, to gather
            an understanding of their background and experience with federal records
            requirements:

                  Office of Environmental Information
                  Office of Air and Radiation
                  Office of International and Tribal Affairs
                  Office of Research and Development
                  Office of Chemical Safety and Pollution Prevention
                  Region 2, New York, New York
                  Region 3, Philadelphia, Pennsylvania
                  Region 6, Dallas, Texas
                  Region 8, Denver, Colorado
                  Region 9, San Francisco, California

            We met with offices’ information management officers, senior information
            officials, regional records officers, records liaison officers, email administrators,
            human resource directors, and Freedom of Information Act officers responsible
            for implementing and complying with the EPA federal records guidance. We also
            met with the EPA representative responsible for the direct oversight of the
            agency’s NRMP regarding that oversight and to obtain an understanding of the
            implemented internal controls around EPA’s ability to maintain electronic records
            and other records management practices.

            We also met with the former Region 8 regional administrator to gain his
            perspective on what EPA could do to strengthen its electronic records
            management practices. We requested interviews with the most recent former
            EPA Administrator and general counsel to gain their perspective on the agency’s


13-P-0433                                                                                       3
            records management practices. We did not receive a response from these two
            former employees on our requests for interviews.

            We followed up on the status of recommendations made by the U.S. Government
            Accountability Office (GAO) in its report National Archives and Selected
            Agencies Need to Strengthen Email Management (GAO-08-742), issued
            June 2008. The report recommended that the EPA:

               	 Revise the agency’s policies to ensure that they appropriately reflect
                  NARA’s requirement on instructing staff on the management and
                  preservation of email messages sent or received from nongovernmental
                  email systems.

               	 Develop and apply oversight practices, such as reviews and monitoring of
                  records management training and practices, that are adequate to ensure
                  that policies are effective and staff are adequately trained and
                  implementing policies appropriately.

            The GAO noted that the EPA was in the process of improving the implementation
            of its electronic content management system in order to collect federal records
            within the agency’s email system.




13-P-0433                                                                                  4
                                  Chapter 2

  The EPA’s Use of Private and Alias Email Accounts 
            The EPA lacks internal controls to ensure the identification and preservation of
            records when using private and alias email accounts for conducting government
            business. The agency lacks controls to ensure agency employees and contractors
            are trained on the records management responsibilities and a process to create
            records from its new email system. Federal guidance issued by NARA requires
            agencies to appropriately identify and preserve records for its decisions. Federal
            guidance also specifies records management training requirements as well as the
            requirements when using automated systems to preserve email records. The
            weaknesses noted occurred because the EPA had not created records management
            policies and procedures for private email account usage, and had not conducted
            oversight to ensure employees and contractors were provided consistent and
            regular training on records management responsibilities. Further, the EPA lacks
            controls to ensure out-processing procedures identify potential records, and lacks
            an automated process to create federal records from its new email system. If these
            critical issues are not corrected, the agency faces the risk that records needed to
            document the EPA’s decisions would not be available. This could potentially
            undermine the public’s confidence in the transparency of the EPA’s operations
            and ultimately erode the public’s trust in the agency’s stewardship of the nation’s
            environmental programs.

Results of Review
            We found no evidence to support that the EPA used, promoted, or encouraged the
            use of private email accounts to circumvent records management responsibilities.
            Furthermore, EPA senior officials indicated that they were aware of the agency
            records management policies and, based only on discussions with these senior
            officials, the OIG found no evidence that these individuals had used private or alias
            email to circumvent federal recordkeeping responsibilities. We noted that the
            previous EPA Administrator and the subsequent Acting EPA Administrator
            (the Deputy Administrator) each had two EPA email accounts, one intended for
            messages from the public and one for communicating with select senior EPA
            officials. Interviews with selected assistant and regional administrators and records
            management officials disclosed that the practice of assigning personnel access to
            multiple email accounts is widely practiced within the agency. We found no
            evidence to support that the EPA reprimanded, counseled or took administrative
            actions against personnel for using private and alias email accounts.

            Personnel have access to multiple EPA email accounts for various purposes.
            These include sending out mass email notifications, transmitting or receiving
            documents in support of special projects, or linking the email account to an
            agency publicly available website to provide the public with a method to


13-P-0433                                                                                     5
            correspond with the EPA. Each of these additionally assigned email accounts
            could potentially contain federal records or other documents subject to Freedom
            of Information Act requests or litigation holds. Our audit disclosed that these
            secondary email accounts present risks to the agency’s records management
            efforts if they are not searched to preserve federal records.

            In addition to needed improvements over internal controls surrounding secondary
            email accounts, more oversight is needed to strengthen policies and procedures
            regarding the use of private email accounts, processes for training employees and
            contractors on their records management responsibilities, and practices for
            preserving records when employees depart the agency. The EPA should also ensure
            that it implements a tool to create records directly from its new email system.

            The EPA Lacks Records Management Policies and Procedures
            Regarding Private Email Account Usage

            The EPA lacks consistent practices regarding what steps employees should take to
            preserve federal records when they use private email accounts for conducting
            government business. Instead, in October 2012, in response to increased attention
            brought on the agency due to media articles and inquires into the EPA records
            retention practices, EPA officials placed an alert on its Intranet advising employees
            the following:

                  “Do not to use any outside mail systems to conduct official Agency
                  business. If, during in an emergency, you use a non-EPA email
                  system, you are responsible for ensuring that any email records and
                  attachments are saved in your offices’ recordkeeping system.”

            Title 36 CFR Chapter XII – National Archives and Records Administration,
            Part 1236, states that agencies that allow employees to send and receive official
            electronic mail messages using a system not operated by the agency must ensure
            that federal records sent or received on such systems are preserved in the
            appropriate agency recordkeeping system.

            The EPA had not developed or implemented policies or procedures regarding the
            preservation of email messages sent or received from private email systems.
            While the EPA alert advises employees not to use outside email systems to
            conduct official business, the alert does not instruct employees on the
            management and preservation of email messages sent from outside email systems
            if it were to occur. Senior agency officials and office representatives cited reasons
            why the complete nonuse of personal electronic equipment (which includes
            computers, mobile devices and email accounts) when the employee is not within
            the office is not practical.

            Senior agency officials and office representatives noted as one reason the
            proliferation of personal mobile devices that are not allowed access to the agency’s



13-P-0433                                                                                       6
            network. The officials also cited as another reason the increased use of unscheduled
            telework, during which employees unexpectedly worked off site when they did not
            have their assigned government equipment with them. However, given these
            growing concerns, the EPA had not taken steps to provide employees guidance as
            to when they may use private electronic equipment—including computers, mobile
            devices and email accounts—to conduct government business.

            Without effective records management policies and procedures that address
            collecting, maintaining and accessing records created from private email
            accounts, the EPA risks the possibility that agency personnel are not conducting
            government business in a manner consistent with management’s desires. The EPA
            also risks the possibility that agency personnel are not capturing potential records
            needed to document agency decisions.

            The EPA Lacks Records Management Training for Private and Alias
            Email Usage

            The EPA lacks internal controls to ensure that personnel are trained on their
            responsibilities for preserving records from private and alias accounts used to
            conduct official government business. As noted, the EPA does not have formal
            guidance on the use of private email accounts and subsequently has not provided
            training in this area. Further, the agency has not conducted training on its existing
            records management policies and procedures, which govern government records
            since 2009. Our discussion with agency representatives raises doubt as to whether
            the EPA will meet the latest requirement to inform all personnel of their records
            management responsibilities.

            Federal guidance requires training of personnel on their records management
            responsibilities. Specifically:

               	 NARA states that federal agencies must provide guidance and training to
                  all agency personnel on their records management responsibilities,
                  including identification of federal records, in all formats and media.

               	 OMB Circular A-123 reiterates management’s responsibility for
                  establishing internal control to train personnel to possess the proper
                  knowledge and skills to perform their assigned duties. OMB Circular
                  A-130 requires agencies to train all employees and contractors on their
                  federal records management responsibilities.

               	 OMB Memorandum M-12-18, Managing Government Records, requires
                  agencies to inform employees of their records management responsibilities
                  by December 31, 2014.

            The EPA had not provided records management training to employees and
            contractors in over 3 years. The agency last provided agencywide records


13-P-0433                                                                                       7
            management training in fiscal years 2007 and 2009. While the training discussed
            creating records within government email systems, neither of these two training
            courses addressed the usage of private email accounts to conduct official
            government business. The training also has not been updated to place emphasis on
            creating records when employees are assigned secondary email accounts. The
            agency plans to incorporate the use of private or secondary email accounts in
            future training courses to fulfill the OMB training requirement to inform
            employees of their records management responsibilities. However the agency has
            not established a firm date for when it would develop or offer the training course.

            The EPA’s NRMP did not establish controls to ensure consistent training of
            records management responsibilities within the regional and program offices or
            ensure employees with specific NRPM responsibilities took available training.
            We noted that the EPA created an organizational structure for its records
            management program with clearly defined roles and responsibilities. The EPA
            also has training available for agency records officers, liaisons and coordinators.
            However, the agency lacked processes to ensure the structure functioned as
            intended and specialized training was taken when needed.

            According to a program office records liaison officer, the officers rely upon the
            headquarters NRPM official to provide training for them to use to train their
            personnel. Records liaison officers could not provide records to show how many
            personnel within their offices were trained on records management
            responsibilities in general or specifically trained on the office’s policy on using
            personnel email accounts when conducting official government business. Our
            interviews also disclosed that the agency relies upon the records liaison officers to
            take additional training to carry out their delegated duties and the agency does not
            monitor whether the records liaison officers took training.

            The lack of consistent records management training increases the risk that agency
            employees neither understand nor fully comply with federal records management
            requirements. This also has led to records management training, when given,
            being delivered in an ad hoc and informal manner with no measure to ensure the
            information reached the specified target audience. As such, we believe the agency
            has limited assurance that all applicable personnel are trained on records
            management responsibilities, and raises questions as to whether any provided
            training was delivered in sufficient frequency to ensure personnel could
            appropriately carry out their responsibilities.

            The EPA Lacks Practices for Collecting and Preserving Records for
            Employees Separating From Regional Offices

            The EPA lacks internal controls to ensure that regional offices consistently collect
            and preserve electronic records for separating employees. Our audit disclosed that
            regional offices lacked processes for notifying individuals with records
            management responsibilities about employee separation from the agency, to



13-P-0433                                                                                         8
            ensure that all records were identified before the employee’s departure.
            Management at regional offices did not consistently validate that separating
            employees turned over electronic records. This included collecting and preserving
            electronic records in alias email accounts known as “mail-in accounts,” as well as
            files on flash drives and external hard drives.

            EPA Order 3110.5A and Employee Separation Checklist Form 3110-1 outline the
            agency’s employee separation procedures. The procedures state that management
            is responsible for certifying receipt of items listed on Form 3110-1, which
            includes the identification and transfer of agency records. The procedure assigns
            departing employees with responsibility to identify and transfer agency records.
            The procedure also assigns the employee’s supervisor and program office records
            manager responsibility to validate the receipt of records through signature.

            Weaknesses within regional separation procedures exist due to the NRMP
            manager not conducting oversight to ensure that federal records procedures were
            fully integrated. Our review disclosed that regional notification procedures for
            departing employees did not allow time to identify and preserve official records.
            We also found that managers with records responsibilities did not consistently
            take steps to validate collection and preservation of records before employee
            departure. For example:

               	 Regions lacked internal controls to ensure employee separation checklists
                  reached individuals with records management responsibilities in order for
                  them to preserve federal records. This included taking steps to have
                  employees search for potential records residing within alias email
                  accounts the employee manages or on other electronic media devices
                  within the employee’s control.

               	 Some employees bypass their supervisor or administrative officer and go
                  directly to the regional human resource office to start the separation
                  process. As such, individuals tasked with records management
                  responsibilities do not know that an employee is departing until the
                  employee arrives with the separation checklist for clearance signature.

               	 Regional separation checklists did not include an area where regional office
                  managers tasked with records management responsibilities could sign off on
                  employee separation forms. Some regional separation checklist forms did
                  not include an agency requirement to identify and transfer records.

               	 Regional office managers not tasked with records management
                  responsibilities were signing off on employee separation forms without
                  conducting steps to ensure that collection and preservation of the separating
                  employees’ electronic records had occurred. One regional human resource
                  staff member also stated that they typically have to sign off on employee
                  clearance forms for employees who depart at the end of the year, when most
                  supervisors are taking leave (use or lose) at holiday time.


13-P-0433                                                                                       9
            Without effective employee separation processes that ensure identification and
            collection of agency records from all electronic media used for collection and
            storage, the EPA risks losing historical records that support its decisions. EPA
            human resource offices are signing off that agency records were preserved even
            though they were not in a position to know this information. The weaknesses have
            also left regional counsels with insufficient time to have employees search to
            ensure that all records are preserved for ligation holds, and with the information to
            prompt employees to search for records that may be contained within alias email
            accounts, flash drives and external hard drives.

            The EPA Lacks Tool to Place Email in Its Electronic Content
            Management System for Its New Email System

            The EPA deployed its new email system without the capability to place new email
            system records in its electronic content management system. During its audit, the
            GAO noted that email records retention in the EPA was primarily a print-and-file
            system and noted that the EPA developed an oversight plan and pilot-tested a
            records management survey tool.

            Subsequent to the GAO report, in fiscal year 2009, the EPA declared electronic
            content management an agency-level weakness. In its fiscal year 2012 Agency
            Financial Report, the EPA noted that inconsistencies in how electronic content is
            maintained and stored have started to impact critical processes related to
            electronic records management. The EPA cited as part of its corrective action plan
            that it would launch two pilot projects to evaluate tools for eDiscovery and the
            management of email records.

            The EPA implemented its new email system without providing a means for agency
            employees to create federal records in the agency’s electronic content management
            system. During the past 4 fiscal years, the EPA has been taking steps to complete
            corrective actions to close out the electronic content management agency-level
            weakness by the projected completion date of fiscal year 2013. Based on
            information on the agency’s electronic content management website, employees are
            directed to print and file email records until an electronic content management
            system is in place to store records. However, the website provides no information
            as to when the EPA would provide a solution for creating federal records from its
            new email system. We believe that the EPA will not be in a position to close out
            the agency-level weakness by its projected fiscal year 2013 completion date.

Agency Actions Prior to Issuance of Final Report

            On June 28, 2013, the EPA issued Interim Records Management Policy
            CIO 2155.2. This policy states that official agency business should first and
            foremost be done on official EPA information systems (e.g., email, instant
            messaging, computer work stations, and shared service solutions). The policy
            specifies that the record creator must ensure that any use of a non-governmental


13-P-0433                                                                                      10
            system does not affect the preservation of federal records for Federal Records Act
            purposes, or the ability to identify and process those records, if requested, under
            the Freedom of Information Act or for other official business (e.g., litigation or
            congressional oversight requests.).

            Also, on July 31, 2013, the agency deployed its new mandatory records
            management training for all agency staff, contractors and grantees that have
            access to EPA information systems. The EPA indicated that over 30 percent of
            agency employees have already taken the training.

Recommendations
            We recommend that the assistant administrator and chief information officer,
            Office of Environmental Information:

                1.		 Develop and implement records management policies and procedures
                     regarding the use of private email accounts when conducting official
                     government business.

                2.		 Develop internal controls to ensure that all EPA employees and contractors
                     complete training on their records management responsibilities.

                3.		 Develop and implement internal controls to monitor and track completion
                     of training for personnel with specific delegated duties and
                     responsibilities outlined in the NRMP guidance.

                4.		 Conduct outreach with all EPA offices to ensure that locally developed
                     separation policies and procedures, as well as the associated employee
                     separation checklist, include records management retention practices
                     consistent with agency guidance. This should include ensuring that:

                        a.		 Locations’ out-processing procedures contain practices where
                             notifications are sent to individuals with records management
                             responsibilities in a timely manner to aid in capturing electronic
                             records from separating employees.

                        b.		 Locations include steps to have employees search for potential
                             records residing within alias email accounts that the employee
                             manages or on other electronic media devices within the
                             employee’s control.

                        c.		 Locations have special out-processing procedures that contain a
                             method for collecting records from departing employees during
                             the holiday season or times of limited staffing.




13-P-0433                                                                                         11
                        d.		 Locations update their locally developed out-processing checklist
                             to ensure an area exists for where records managers can note their
                             records management certifications as required by agency policy.

                   5.		 Establish a revised date for when the EPA will implement an
                        electronic content management tool to capture email records within the
                        agency’s new email system.

Agency Response and OIG Evaluation
            The agency provided a corrective action plan with milestones to address all the
            report recommendations. The agency completed corrective actions associated with
            recommendations 1 and 2 and the OIG considers these recommendations closed.
            Recommendations 3, 4 and 5 are considered open with corrective actions pending.

            Although the EPA agreed to perform corrective actions for our recommendations,
            the agency believed the report did not:

               	 Recognize the distinction between secondary accounts used by EPA
                  Administrators for a specific purpose and secondary email accounts used
                  for purposes such as sending out mass email notifications, transmitting or
                  receiving documents in support of special projects, or linking the email
                  account to an agency publicly available website to provide the public with a
                  method to correspond with the EPA.

               	 Reflect the issuance of the EPA Interim Records Management Policy
                  CIO 2155.2 on June 28, 2013, which strongly discourages the use of private
                  non-EPA email accounts

            Our audit disclosed that the agency uses secondary email accounts similarly
            throughout the EPA. These secondary email accounts can send and receive email
            messages as well as create records that could be subject to Freedom of Information
            Act or litigation requests. The agency also had not implemented policies that make
            distinctions between secondary email accounts used by senior agency official and
            secondary email accounts used for other purposes. As such, we made no
            differentiation between these accounts during our audit. Our audit disclosed that
            secondary email accounts pose risks to the agency and the EPA should take steps to
            strengthen the management control structure surrounding these accounts.

            We updated the final report to recognize that the EPA issued its interim records
            management procedure subsequent to the OIG issuing its discussion draft report.




13-P-0433                                                                                    12
                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                               POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed-To
    No.      No.                         Subject                          Status1        Action Official             Date      Amount      Amount

     1       11     Develop and implement records management                C       Assistant Administrator and    6/28/13
                    policies and procedures regarding the use of                     Chief Information Officer,
                    private email accounts when conducting official                   Office of Environmental
                    government business.                                                    Information

     2       11     Develop internal controls to ensure that all EPA        C       Assistant Administrator and    7/31/13
                    employees and contractors complete training on                   Chief Information Officer,
                    their records management responsibilities.                        Office of Environmental
                                                                                            Information

     3       11     Develop and implement internal controls to monitor      O       Assistant Administrator and    12/31/13
                    and track completion of training for personnel with              Chief Information Officer,
                    specific delegated duties and responsibilities                    Office of Environmental
                    outlined in the NRMP guidance.                                          Information

     4       11     Conduct outreach with all EPA offices to ensure         O       Assistant Administrator and    12/31/13
                    that locally developed separation policies and                   Chief Information Officer,
                    procedures, as well as the associated employee                    Office of Environmental
                    separation checklist, include records management                        Information
                    retention practices consistent with agency
                    guidance. This should include ensuring that:
                     a. Locations’ out-processing procedures contain
                        practices where notifications are sent to
                        individuals with records management
                        responsibilities in a timely manner to aid in
                        capturing electronic records from separating
                        employees.
                     b. Locations include steps to have employees
                        search for potential records residing within
                        alias email accounts that the employee
                        manages or on other electronic media devices
                        within the employee’s control.
                     c. Locations have special out-processing
                        procedures that contain a method for
                        collecting records from departing employees
                        during the holiday season or times of limited
                        staffing.
                     d. Locations update their locally developed out-
                        processing checklist to ensure an area exists
                        for where records managers can note their
                        records management certifications as required
                        by agency policy.

     5       12     Establish a revised date for when the EPA will          O       Assistant Administrator and    12/31/13
                    implement an electronic content management tool                  Chief Information Officer,
                    to capture email records within the agency’s new                  Office of Environmental
                    email system.                                                           Information



1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0433                                                                                                                                        13
                                                                                     Appendix A

                   Agency Response to Draft Report
                                         August 27, 2013

MEMORANDUM

SUBJECT: 	 Response to the Office of Inspector General Draft Report No. OA-FY13-0113
           Congressionally Requested Inquiry into the EPA’s Use of Private and Alias Email
           Accounts, dated July 19, 2013

FROM: 	        Renee P. Wynn
               Acting Assistant Administrator and Chief Information Officer

TO:	           Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to respond to the issues and recommendations described in Draft
Report No. OA-FYI3-0113.

Over the last several months, the agency has undertaken many important actions designed to
improve the agency's records management and preservation program. Because of the connection
between these efforts and some of the issues discussed in your draft report, and because we
believe the report should be evaluated with an understanding of these efforts, I detail the efforts
below.

       Improved Training on Information Management Responsibilities

The EPA has launched a multi-faceted training effort to ensure every employee at the agency
understands his or her records management responsibilities. First and foremost in the agency's
training program is mandatory training for all employees of the EPA on records management. On
July 31,2013, Deputy Administrator Robert Perciasepe announced the availability of this new
training, reminding employees that "records management is the daily responsibility of every EPA
employee." The training focuses on the foundations of records management, providing guidance
on how to identify and preserve Federal records. Less than three weeks after the training was
announced - and more than a month before the training must be completed on September 30,
2013 - over 30% of agency employees have already taken the training.

In addition to training for all employees, the EPA is working with the Department of Justice's
Office of Information Policy on in-depth training for the agency's Freedom of Information Act
(FOIA) professionals. The Office of Information Policy is the office within the Department of
Justice that develops guidance for Executive Branch agencies on our responsibilities under
FOIA, and is understood by government and non-government organizations alike as the
government's foremost FOIA experts. The EPA is excited to welcome DOJ for this training,
which the agency expects to conduct in September 2013.


13-P-0433                                                                                        14
Following up on 2013's Records Management training, the EPA will conduct mandatory training
for all of our employees on their individual and collective responsibilities ttt1der FOIA in 2014.
This training is expected to focus on the requirements of FOIA; the importance of timely,
accurate responses; and the role every employee plays in the agency's efforts to comply with the
Act. In addition to these training modules, the EPA has completely overhauled our Records
intranet site. This site, at http://intranet.epa.gov/records, serves as an agency-wide records
management resource, and provides guidance to employees as well as links to a variety of
information law resources.

       Updated Policies For Employee Conduct

In addition to a renewed focus on training for employees, the EPA has begun the process of
reviewing, updating, and reissuing agency policies for the effective management of agency
information resources. First among that effort was a review of the agency's Records Policy, with
the specific intent of addressing the use of personal email and consolidating our records retention
schedules to make them easier for staff to use and more adaptable to electronic records
management tools.

In June 2013, the EPA issued its Interim Records Management Policy CI0-2155.2, which
strongly discourages the use of private non-EPA email accounts, stating that "Official Agency
business should first and foremost be done on official EPA information systems." Further, the
Interim Policy goes on to instruct employees on how to manage and preserve email messages
sent from outside email systems if use of a non-EPA email system were to occur. The Interim
Policy instructs employees that once the electronic files have been captured in an approved EPA
records management system, they should be removed from non-EPA information systems, unless
subject to an obligation to preserve the files in their original location. The EPA initiated the
process to finalize this policy shortly after issuing in interim form.

On September 30th, the EPA will issue its first agency-wide Interim FOIA Procedures. The EPA
expects these procedures will increase consistency and predictability in the processing of FOIA
requests across the agency's programs and regions. The procedures define key roles and
responsibilities in the processing of FOIA requests, and detail the basic steps of processing a
request, from receipt to document collection to production.

       Advanced Technology for Managing Agency Information

The EPA has also embarked on an ambitious effort to improve the technology available to
employees for managing, preserving, and producing agency information. In 2010, the EPA
established the Electronic Content Subcommittee of the Quality and Information Council. (The
Council was established in 1999, to address enterprise-wide information management issues and
to develop agency policies to guide the EPA in the areas of information technology and
information management.) The Electronic Content Subcommittee was established to focus
particularly on the challenge of creating, preserving, maintaining, and retrieving the range of
electronic information at the agency. Under the auspices of that Committee, the agency's
eDiscovery Workgroup led the way in launching an enterprise-wide litigation hold solution
in October of2012. For the first time, the EPA now issues, maintains, tracks, and monitors all
litigation holds issued to agency employees in a single system. This consolidation helps the


13-P-0433                                                                                       15
agency ensure it is preserving all information subject to a litigation-based preservation
obligation, and increases consistency and efficiency at the same time. The Workgroup has also
made significant progress towards the full launch of electronic search and review tools that will
be used for more comprehensive and efficient information requests and document productions.

The agency is also poised to release an "EZ Records" tool to assist employees with their records
management obligations. The EZ Records tool will allow employees to designate emails as
records with just one click of a mouse, increasing the likelihood that employees will preserve
email records as soon as they are created. To help encourage use of the tool, in October 2013, the
EPA will launch an Agency-wide, mandatory training on how to capture email records using the
new EPA-developed tools for records preservation.


Response to the Draft Report

The agency has welcomed this evaluation by the Office of Inspector General. The "Agency's
Response to Report Recommendations" attachment details EPA's response to each
recommendation and provides an estimated date of completion. In addition to the responses to
the Report's specific recommendations, the agency would also like to respond to certain aspects
of the narrative portions of the report as well.

Specifically on the use of private, non-EPA email accounts, the report correctly finds that the
agency has not "promoted or encouraged the use of private ' non-governmental' email accounts to
conduct official government business." In fact, the agency has taken many steps to discourage
the use of non-EPA email accounts unless necessitated by special circumstances. Since 2009, the
agency has stated both in its records training for senior officials and on its records intranet site
Frequently Asked Questions that EPA staff generally should not use non-government email
accounts to conduct official agency business. EPA's records officer provides this information as
part of the on-boarding process for political appointees and senior officials in Headquarters, as
well as consults with Records Liaison Officers to provide this information to officials located in
the agency's regional office. We believe that the report should more clearly recognize these
previous efforts to provide guidance on this issue. In addition, the report does not reflect that all
employees at headquarters receive basic records management training as part of the onboarding
process, and are provided information about the extensive self-help section of the Records
Program intranet site.

The agency believes that the report could be more helpful for our efforts to improve our records
management program by making a clearer distinction among the types of email accounts
addressed in the report. The report uses both "private" and "personal" to describe email accounts
that are not maintained on an EPA system. We encourage the OIG to use consistent
nomenclature in the final report, to ensure all recipients of the report understand the guidance
provided.

We also strongly encourage the OIG to more clearly distinguish between non-EPA email
accounts and "secondary" official epa.gov email accounts. Secondary epa.gov accounts are
official government accounts that are assigned to an employee to a program within the EPA as
part of that employee's or programs official government duties. Emails sent to or from these


13-P-0433                                                                                         16
accounts are sent two or from the EPA email system in the same manner and form as an email to
or from a "primary" account is sent to or from the EPA email system. These accounts are
different from non-EPA email accounts, and, as such the two may require different actions to
ensure compliance with an employee's information management responsibilities.

Additionally, the report also seems to conflate various types of secondary official epa.gov email
accounts. There are a variety of uses for secondary accounts that are different from a regular, day
to day email account of a single employee. Currently, the agency has only identified a need for
the Administrator or Deputy Administrator to have a secondary account that is specific to her or
him and that is used as her or his day to day official government email account. These secondary,
official government accounts permit the Administrator and Deputy Administrator to conduct
agency business by maintaining a manageable, working email account for daily correspondence
with staff and other officials, and the EPA's practice of issuing such accounts has been reported
and documented to the National Archives and Records Administration (NARA) since 2008. This
practice is appropriate and commonplace within the federal government. The Administrator's
primary account, which is provided to the public, is rendered impractical because of the large
volume (over 1 million emails annually) of mail it receives from outside the agency. The EPA
actively monitors both the primary and secondary accounts, and ensures that all emails to either
type of account are properly reviewed for preservation under the Federal Records Act and
produced under the FOIA or other production obligation. The agency strongly believes that the
final report should more clearly reflect the very limited existence and use of this type of
secondary official email account.

The other types of "secondary" accounts discussed in the report are generally not accounts
assigned to or used by an individual employee for her day to day email communications. These
accounts are also used for practical purposes, such as sending out mass email notifications,
transmitting or receiving documents in support of special projects, or linking the email account
to a publicly available website of the agency to provide the public with a method to correspond
with the EPA. An example of this type of secondary account is the "contact us" email account for
the EPA's Sun Wise program. This account is used to answer questions from the public about the
Sun Wise program and is designated as Sun Wise Staff (sunwise@epa.gov) . This type of
secondary account might be more clearly identified as a "group" account or "special purpose"
account. We strongly believe that the final report should make this distinction, and clarify the
draft report's conclusion that: "This practice is widely used within the agency and not limited to
senior officials.'' My office has no information that indicates the use of "secondary" day to day
government email accounts, such as the one used by the Administrator and which was the
subject of the Congressional inquiry, is widely used within the agency, and the draft report does
not include information to the contrary.

The use of both types of secondary accounts is authorized and appropriate, therefore, the agency
has not reprimanded, counseled, or taken administrative actions against personnel using the
accounts for conducting official government business. Use of secondary accounts does not alter
or interfere with the preservation requirements under the Federal Records Act or disclosure
requirements under the Freedom of Information Act and Congressional document requests.
Further, all agency-issued email accounts, including primary accounts and any type of secondary
accounts, are subject to the same current agency records policies and procedures for managing



13-P-0433                                                                                       17
records, both created and received on these accounts and are subject to the current agency
disclosure policies for responding to information requests. In addition, the report does not
indicate in the Scope and Methodology section that staff members who manage the
secondary official government account assigned to the Administrator were consulted during this
audit. I believe that these individuals may provide valuable additional information about existing
practices and procedures for capturing and producing records from these accounts to ensure the
agency complies with preservation and disclosure requirements.

Finally, while the agency agrees with many of the recommendations in the report, some of the
recommendations (specifically 3 and 4) go beyond the issue of "Private and Alias'' email account
usage. As you can see from the information detailed above, these recommendations relate to
issues already identified and actively being addressed by the EPA's Office of Environmental
Information (OEI).

Our response to your recommendations is attached.

We look forward to discussing this report with you and to working with your office to improve
EPA's records management program. If you have any questions regarding this response, please
contact John Ellis, Agency Records Officer, of the Office of Information Collection/Collection
Strategies Division/Records and Content Management Branch on (202) 566-1643.

Attachment

cc: 	   Vaughn Noga
        Andrew Battin
        Jeff Wells
        John Moses
        Erin Collard
        John Ellis
        Scott Dockum
        Brenda Young




13-P-0433                                                                                        18
            AGENCY’S RESPONSE TO RECOMMENDATIONS: OIG Report OA-FY13-113 


No.   Draft Report Recommendation                    Agency Response                  Estimated
                                                                                    Completion by
                                                                                    Quarter and FY
1.    Develop and implement records          EPA issued an Interim Records        Completed Q3
      management policies and                Management Policy CIO-2155.2,        FY2013
      procedures regarding the use of        on June 28, 2013 which strongly
      private email accounts when            discourages the use of private
      conducting official government         non-EPA email accounts and
      business. (page 11)                    instructs employees on the
                                             management and preservation of
                                             email messages sent from outside
                                                                                  In progress Q3
                                             email systems if it were to occur.
                                                                                  FY2014
                                             EPA has initiated a process to
                                             finalize Records Management
                                             Policy CIO-2155.2
2.    Develop internal controls to           EPA developed mandatory              In progress - Q4
      ensure that all EPA employees          records management training for      FY2013
      and contractors complete training      all EPA staff, contractors and
      on their records management            grantees. The training was
      responsibilities. (page 11)            deployed agencywide July 31,
                                             2013 and is to be completed by
                                             September 30, 2013.
3.    Develop and implement internal         Records Liaison Officers are         Q1 FY2014
      controls to monitor and track          required to obtain the NARA
      completion of training for             Certification in Federal Records
      personnel with specific delegated      Management. This training is
      duties and responsibilities outlined   tracked by NARA and
      in the National Records                periodically reported to the
      Management Program (NRMP)              Agency Records Officers.
      guidance. (page 11)                    Although this recommendation
                                             does not appear to specifically
                                             relate to private or secondary
                                             email accounts, the NRMP will
                                             request an updated report from
                                             NARA and follow-up with any
                                             RLO that has not received the
                                             certification. Non compliance
                                             will be reported to the
                                             management for appropriate
                                             action.
4.    Conduct outreach with all EPA          EPA’s National Records               Q1 FY 2014
      offices to ensure that locally         Management Program, via the
      developed separation policies and      Quality and Information Council’s
      procedures, as well as the             agency-wide Records Workgroup,
      associated employee separation         has been working with OARM to
      checklist, include records             develop a consolidated employee
      management retention practices         separation and transfer procedure.
      consistent with agency guidance.       Although this recommendation



13-P-0433                                                                                            19
      This should include ensuring that:    does not appear to specifically
                                            relate to private or secondary
      a. Locations’ out-processing          email accounts, the procedure will
      procedures contain practices          include a requirement that
      where notifications are sent to       Records Liaison Officers, Records
      individuals with records              Contacts and Document Control
      management responsibilities in a      Staff are notified 2 weeks in
      timely manner to aid in capturing     advance of an employee’s
      electronic records from separating    separation, when possible. This
      employees. (page 11)                  will alert the staff with specific
                                            records management
                                            responsibilities to aid separating
                                            staff in capturing their records.
4.    b. Locations include steps to have    EPA’s National Records             Q1 FY 2014
      employees search for potential        Management Program, via the
      records residing within alias email   Quality and Information Council’s
      accounts that the employee            agency-wide Records Workgroup,
      manages or on other electronic        and OARM will include in the
      media devices within the              separation process and procedures,
      employee’s control. (page 11)         steps to have employees search for
                                            potential records residing within
                                            the secondary or group email
                                            accounts that the employee
                                            manages. A checklist will also be
                                            provided which will include all
                                            possible locations where records
                                            (paper and electronic) might be
                                            found.
4.    c. Locations have special out-        Although this recommendation       Q1 FY 2014
      processing procedures that contain    does not appear to specifically
      a method for collecting records       relate to private or secondary
      from departing employees during       email accounts, the EPA’s
      the holiday season or times of        National Records Management
      limited staffing. (page 11)           Program, via the Quality and
                                            Information Council’s agency-
                                            wide Records Workgroup, and
                                            OARM will include in the
                                            separation procedure safeguards to
                                            ensure that separating employee
                                            information is captured during the
                                            holiday season and other times of
                                            limited staffing.
4.    d. Locations update their locally     Although this recommendation       Q1 FY2014
      developed out-processing              does not appear to specifically
      checklist to ensure an area exists    relate to private or secondary
      for where records managers can        email accounts, the EPA’s
      note their records management         National Records Management
      certifications as required by         Program and OARM will include
      agency policy. (page 12)              in the separation process and
                                            procedures an out-processing
                                            checklist to ensure an area exists


13-P-0433                                                                                   20
                                            for records managers to certify as
                                            required by policy.
5.    Establish a revised date for when     In addition to the Lotus Notes       Q4 FY2013
      the EPA will implement an             email records solution, which is
      electronic content management         already developed, an email
      tool to capture email records         records solution for MS Office
      within the agency’s new email         365 is under development.
      system. (page 12)
                                            Although this recommendation         Q1 FY2014
                                            does not appear to specifically
                                            relate to private or secondary
                                            email accounts, the EPA will
                                            deploy agency-wide the email
                                            records solution for both Lotus
                                            Notes and MS Office 365.

No.                Findings                  Agency Explanation/Response         Proposed Alternative

1.    The report states that, “the          This statement does not recognize    Revise the report to
      previous EPA Administrator and        the distinction between secondary    recognize this
      current Acting EPA Administrator      accounts used by EPA                 distinction.
      each had two EPA email accounts,      Administrators for a specific
      one intended for messages from        purpose, and secondary email
      the public and one for                accounts used for purposes such
      communicating with select senior      as sending out mass email
      officials.” (page 5) Further the      notifications, transmitting or
      report notes, “that the practice of   receiving documents in support of
      assigning personnel access to         special projects, or linking the
      multiple email accounts is widely     email account to an agency
      practiced within the agency.”         publicly available website to
      (page 5)                              provide the public with a method
                                            to correspond with the EPA.
2.    The report states that “EPA had       Please modify the statement to       Revise the report to
      not developed or implemented          reflect the issuance of the EPA      indicate that EPA put
      policies or procedures regarding      Interim Records Management           in place policy and
      the preservation of email             Policy CIO-2155.2, on June 28,       procedures and
      messages sent or received from        2013 which strongly discourages      training regarding the
      private email systems.” (page 6)      the use of private non-EPA email     proper management of
      Further, the report notes that        accounts and instructs employees     email records sent
      [EPA], “…does not instruct            on the management and                from private accounts.
      employees on the management           preservation of email messages
      and preservation of email             sent from outside email systems if
      messages sent from outside email      it were to occur.
      systems if it were to occur.” (page   EPA has initiated the process to     In progress Q3
      6)                                    finalize EPA Records                 FY2014
                                            Management Policy CIO-2155.2




13-P-0433                                                                                               21
                                                                                 Appendix B

                                     Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator for Environmental Information
Director, Office of Information Collection, Office of Environmental Information
Deputy Director, Office of Information Collection, Office of Environmental Information
Audit Follow-Up Coordinator, Office Environmental Information




13-P-0433                                                                                22
